HHS/OIG, Audit -"Graduate Medical Education for Dental Residents Claimed by Boston
Medical Center for Fiscal Years 2000 Through 2002,"(A-04-04-06003)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Graduate Medical Education for Dental Residents Claimed by Boston Medical Center
for Fiscal Years 2000 Through 2002," (A-04-04-06003)
March 14, 2006
Complete
Text of Report is available in PDF format (823 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether Boston Medical Center (the Hospital) included the
appropriate number of dental residents in its full time equivalent (FTE) counts when computing
Medicare graduate medical education (GME) payments for fiscal years (FYs) 2000 through 2002.  The
Hospital inappropriately included a total of 120.15 direct GME FTEs and 113.80 indirect GME
FTEs in the counts for FYs 2001 and 2002 without incurring all of the costs of training dental
residents in nonhospital sites.
We recommended that the Hospital:  (1) file an amended cost report, which will result
in a refund of the $4,927,120 associated with FTEs for which the Hospital did not incur all
or substantially all of the training costs, (2) establish and follow written procedures to
ensure that the FTE counts for residents in nonhospital settings include only those FTEs
for which the Hospital has incurred all or substantially all of the training costs, and (3)
determine whether errors similar to those identified in our review occurred in Medicare cost
reports after FY 2002 and refund any overpayments.  The Hospital generally disagreed
with our findings and recommendations related to FY 2002, but did not address our findings
and recommendations for FY 2001.